No. 20-979
IN THE

Supreme Court of the United States
PANKAJKUMAR S. PATEL and JYOTSNABEN P. PATEL,
Petitioners,
v.
MERRICK B. GARLAND, ATTORNEY GENERAL,
Respondent.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Thomas G. Sprankling, a member
of the bar of this Court, certify that the accompanying Brief for Petitioners contains
12,329 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
Executed on August 31, 2021.

THOMAS G. SPRANKLING
WILMER CUTLER PICKERING
HALE AND DORR LLP
2600 El Camino Real, Suite 400
Palo Alto, CA 94306
(650) 858-6000
thomas.sprankling@wilmerhale.com

